?n O' n T, n A n

i.v
\ /•r
Supreme Court, U.S.
FILED

e/
A_
■>.J v1

H

EEC 3 ! -"'0

r-J -

OFFICE OF THE CLERK

No.

In The

Supreme (Emirt of tlje IMUb States
In Re. Ravi S. Vaidyanathan
Petitioner

On Petition for a Writ of Mandamus to the
The Supreme Court of California

Ravi S. Vaidyanathan
ProSe
POST OFFICE BOX 193445
SAN FRANCISCO, CA 94119
(415)583-3659

REC-.

•■■■■■ 3

-

JAN 2 i 2021

''.

Question(s) Presented
In the State of California, is an ecclesiastical bishop, vis-a-vis, the episkopos, also, by
default, a state appointed health and safety inspector? And, is the same bishop, the
episkopos, exempt from ecclesiastical immunity? And, to answer these, can the Court
in California interpret The Holy Bible, on behalf of the State?

(i)

List of All Parties
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:

Respondent Bishop King, a volunteering (implying, without pay), yet a called office in
The Church of Jesus Christ of Latter-Day Saints

Mr. Navarrete, Clerk and Executive Officer, Supreme Court of California.

Related Cases
• Constitution of the State of California 1879 Art. I, § 4
• Fourteenth Amendment (Section One) to the United States Constitution
• California Civil Code - CIV § 1714(a)

(ii)

Table of Contents
Question(s) Presented

1

List of All Parties

ii

Related Cases

n

Table of Authorities

v

Prayer

1

Jurisdiction

1

Constitutional Provisions Involved

1

Statement of The Case

1

I

The Original Complaint

2

II

Legal obligations of the Respondent

2

III A pivotal interaction with the respondent

3

IV Episkopos

4

Reasons for Granting the Writ

5

Argument

5

I

Departure from Judicial Process

5

II

Irreparable Damage

6

A. Jurisdiction of Appellate Division

6

B.

Role of a Clerk

7

C.

Appellate Versus Appeal

8

D.

President Trump

.
(iii)

8

E.

On intent

9

Conclusion

15

INDEX TO APPENDICES

18

PROOF OF SERVICE

19

(iv)

Table of Authorities
Page

Constitutional Provisions, Statutes and Rules
California Civil Code § 1714(a)

....................................

2

California Civil Code § 77(f) .........................................

7

Title 28, United States Code
§ 1254 ..........................................................................

1

Other Authorities
Scripture, 1 Jn 2:22, King James Version

. .

1

. . .

7

..............................

16

Scripture, 1:20, Joseph Smith - History
Scripture, 44:22, Yechezkel

Scripture, I Samuel 13:17, Nevi’im

...............

Scripture, II Chronicles 3:11, Kethuvim

5

. . .

8

Scripture, Matthew 24:10, King James Version

5

The Book of Mormon, Chapter TV (1830)

(v)

15

Prayer
IN THE SUPREME COURT OF THE UNITED STATES PETITION FOR A WRIT OF
MANDAMUS
Petitioner respectfully prays for an extraordinary writ of certiorari as follows:

Jurisdiction
The date on which the highest state court decided my case was December 23, 2020.
A

copy

of

that

decision

appears

at

Appendix

A.

This Court has jurisdiction under 28 U.S.C. § 1254(1).

Constitutional Provisions Involved
1. XIVth Amendment, Section 1. Snippet - "nor shall any state deprive any person
of life, liberty, or property, without due process of law;"
2. XIVth Amendment, Section 1. Snippet - "nor deny to any person within its
jurisdiction the equal protection of the laws."
3. This case implicates the Establishment and Free Exercise Clauses of the First
Amendment of the U.S. Constitution: “Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise thereof....”

Statement of The Case
"Who is a liar but he that denieth that Jesus is the Christ? He is antichrist,
that denieth the Father and the Son." - Verse Twenty-Two, Chapter Two, The
First Epistle General of John. See Scripture, 1 Jn 2:22, King James Version
In August of 2018, the petitioner filed a civil lawsuit at the Superior Court of
California, County of Alameda, alleging that the sacrament (a tiny cup of water and
a pinch of bread), which churchgoers partake every Sunday, is being prepared in an
unhygienic way, causing the petitioner to sustain injuries. The petitioner held Bishop
1

Michael Durwood King (“Bishop King”), bishop of the Ninth Ward of Oakland of THE
CHURCH OF JESUS CHRIST OF LATTER-DAY SAINTS (“THE CHURCH”),
responsible for this injury, implying that he, the bishop, is the legal authority, who
has been negligent to hygiene issues of his ward, thereby breaching the legal duty to
exercise appropriate care.
Bishop King, by virtue of being a bishop, an ecclesiastical office bestowed with
authority, owed the defendant a general duty of care. This general duty of care is an
obligation imposed by Cal. Civ. Code § 1714(a) California Code of Civil Procedure,the
first part of which states that, “everyone is responsible, not only for the result of his
or her willful acts, but also for an injury occasioned to another by his or her want of
ordinary care or skill in the management of his or her property or person, except so far
as the latter has, willfully or by want of ordinary care, brought the injury upon himself
or herself.”
I

The Original Complaint

The seed of the original complaint, at the trial court, that has grown into a huge
Sequoia sempervirens, the sole living species of the genus Sequoia, verbatim, is this:

"The defendant Bishop Michael D. King of 9th ward of Oakland, The Church of Jesus
Christ of Latter-day Saints, located at 4780 Lincoln Avenue, Oakland, CA, 94602 is in
charge of overseeing Sacrament administration. Because of the defendant’s general
negligence in performing this duty, I have suffered health damages as the Sacrament
was not prepared in hygienic way."
II

Legal obligations of the Respondent

The instrinsicality of this litigation revolves around the word "care". The standard dic­
tionary says, "care" is, "responsible charge", which coincides with the conventional
understanding of the word. It says "care" also means "the state of being mentally
oppressed". To cite an example from literature written by our own Fireside poet
Henry Wadsworth Longfellow, in his brilliant poem, Goblet of Life,
2

“The weight of care
That crushes into dumb despair
One-half the human race.”

How heavy? How weighty and ponderous? How gravitating and superincumbent? One
would think we all should quit what we are doing and retire into some deep forest,
by ourselves, and think about these lines, and why, think about life in general. But,
reality beckons us back and makes us realize, both, at and for once, that this is not
the "care" we are talking about. The "care" we are talking about is guardianship.
Protection. Wardship and wardenship, both. We expect our bishop to be a watchdog, if
not a Cereberus.
It is this "want of ordinary care [or skill] in the management of his [ward]", that
Bishop King is being sued for.
Ill A pivotal interaction with the respondent
The petitioner and the respondent have had frictions in the past that should not be
attributed as a motive to this case. The following event happened on Thursday evening
(when Bishop King is usually in his office). The entire building is in a creepy silence
on Thursday evenings, with crickets chirping. Winter nights are especially gloomy and
heavy.
One such winter night, Bishop King called the petitioner into his office and asked him
to close the door behind him:
Bishop King: "Let me get to the point straight. There seems to be some unease
among ward members ever since you joined the ward. Particularly, the women."
Petitioner: "I really am surprised to hear that and don’t know what I have been doing
to send out vibes like that."
Bishop King: "Exactly. People who send out vibes like that always do things on the
sly, and not in the open. Let me be even more blunt. I don’t like beating about the
bush. I know you live in San Francisco. And, this is Oakland. No faggot shit here. We

3

don’t play that shit in Oakland. Am I clear?"
(The petitioner loses his cool now).
Petitioner (with voice raised): "You don’t tell me what shit I should play or I shouldn’t.
I know what shit you play in Oakland. Southern Baptist shit. That’s the shit you play
in the LDS church. You don’t play the Baptist shit here. Shouting and clapping to that
"hallelujah" bullshit ALL THE FUCKING TIME. This is an LDS church. Now, YOU
GET THAT STRAIGHT. AND, next time don’t play this "close the door behind you"
shit".
(The petitioner stormed out of the room banging close the door behind him).
IV Episkopos
As this litigation matured and developed, and went to the appellate division, the
petitioner had to make clear certain rationale that goes beyond merely asking the
court to interpret constitutional laws. Said another way, once in a FUCKING blue
moon, or several FUCKING blue moons, someone appears and challenges certain
fundamental notions of certain aspects of the legal system. Challenging may not be
the right word because it has the connotation of being stand opposed. Let us say
someone who shakes few fundamental ideas. One such groundbreaking innovation,
rather innovative, ingenious thought is to understand if the Church and the State
are absolute dichotomies. It cannot be absolute because it sounds ridiculous to a
layman. Layman says "Hey come on, the cop I know personally, he comes to the church
regularly." He also says, "You know our beehive leader is an horticulturist." If, on a lay
level, one can observe such osmosis, it is a scholar’s duty to see if it can actually be
formalized. Digging deep, getting to the core, the real link between the Church and
the State is right among us. We are just blind to that formalization. Guess who? It is
our own FUCKING BISHOP. A bishop, as an episkopos, acts as the link between
the Church and the State, which is the kernel of the question that was raised on
the very first page of this FUCKING PETITION FOR A FUCKING MANDAMUS.
Does it fucking make sense, or do you want the petitioner to do the song and dance of
an ancient British court of wig-wearing faggots, "YOUR HONOR, YOUR FUCKING
LORDSHIP, MY DEAR FUCKING WORSHIP, WHERE IS YOUR FEETSHIP, EVEN
4

BETTER, THE DICKSHIP, I WILL LICK IT SHIP AND BY THE WAY, WHERE IS
YOUR MAYIRUSHIP AND POOLSHIP"? This is FUCKING UNITED FUCKING
STATES OF FUCKING AMERICA MAN! JEEEZ!! FOR CHRIST’S SAKE.
Reasons for Granting the Writ
"And then shall many be offended, and shall betray one another, and shall
hate one another;'" - Verse Eight, Joseph Smith - Matthew Cf. Scripture, Matthew
24:10, King James Version
This offense originally was predicted for the apostles, and then generalized to the
entire church. And, if things go the way as they go, it will be generalized to everyone,
leading to anarchy. This is exactly the state which law needs to step in and regulate.
Law needs to take its course, and someone has to invoke it. This writ essentially hopes
to accomplish that. No amount of legal authorities citations will equal an earnest
petition for a writ of mandamus - an extraordinary writ. Extraordinary, for a reason.
Addressing and settling the important question of law raised in the first page of this
petition is of great public importance. And, this is a sustained effort - a litigation
travels all the way from a trial court to the last court of resort in the United States
almost like a pilgrimage. A pilgrimage, it is. People risk, fast, pray, cross hurdles and
what not. This is not like calling 9-1-1 or writing a love letter. This requires immense
effort, AND THAT EFFORT IS TO ACCOMPLISH SOMETHING - TO SEE THINGS
COME TO FRUITION.
Argument
"The raiders came out of the Phlistine camp in three columns: One column
headed for the Ophrah road that leads to the district ofShual,"' - Verse Seven­
teen, Chapter Thirteen, Nevi’im. See Scripture, I Samuel 13:17, Nevi’im .
I Departure from Judicial Process
The Supreme Court of California rejected to file the petitioner’s review citing a prepos­
terous reason (attached is the letter from the clerk in the appendix). Has the judiciary
5

come to such a state where the clerk decides the "contents" of the case? We are not
arguing "due process of law" here. Please understand that. What is happening here
is fundamentally a very dangerous problem -AN ALTERNATE PROCESS OF LAW.
JUST LIKE ALTERNATE ROCK MUSIC. This is much more than a departure, this
is a PERVERSION OF JUDICIAL PROCESS. That is why the petitioner is going
for an EXTRAORDINARY WRIT. The Supreme Court of the United States needs to
step in and essentially say ENOUGH IS ENOUGH! THIS IS NOT WHAT THE
FOUNDING FATHERS INTENDED FOR THE COUNTRY.
And, that my dear Sir, is the reason to grant a writ.
II

Irreparable Damage

The petitioner was denied due process of law, thereby violating a fundamental consti­
tutional right. Having exhausted all routes to appeal, the petitioner is left with the
only option of writing to the Supreme Court of the United States. This violation of
fundamental right has caused an irreparable damage that only the Supreme Court
can remedy with a mandamus writ. The petitioner will not budge to authoritarian
practices in the judiciary. The LAW NEEDS TO TAKE ITS COURSE. This is not
mere switching on and switching off things. Law is for human beings, and not for
automatons.
A. Jurisdiction of Appellate Division
"He again forbade me to join with any of them; and many other things did he
say unto me, which I cannot write at this time. When I came to myself again,
I found myself lying on my back, looking up into heaven. When the light
had departed, I had no strength; but soon recovering in some degree, I went
home. And as I leaned up to the fireplace, mother inquired what the matter
was. I replied, uNever mind, all is well—I am well enough off.” I then said
to my mother, “I have learned for myself that Presbyterianism is not true.” It
seems as though the adversary was aware, at a very early period of my life,
that I was destined to prove a disturber and an annoyer of his kingdom; else
6

why should the powers of darkness combine against me? Why the opposition
and persecution that arose against me, almost in my infancy?" - Verse Twenty,
Joseph Smith - History. See Scripture, 1:20, Joseph Smith - History
In California, the appellate division has jurisdiction on appeal “in all cases in
which an appeal may be taken to the superior court or the appellate division of the
superior court as provided by law, except where the appeal is a retrial in the superior
court.” C. C. P. § 77(f) California Code of Civil Procedure The appellate jurisdiction of
the superior court is wholly statutory. This means their jurisdiction is confined.
B.

Role of a Clerk

Is this FUCKING rocket science? Please tell if this is rocket science and we can bring
in experts and settle this. Let the petitioner put the clerk in his/her place, by defining
what his/her roles and responsibilities are:

1. Make sure the mail you receive has sufficient postage
2. Ensure dimensions of paper height and width (8.5" by 11")
3. Make sure the word count is right. An approximate idea is good enough. It will
suffice if he uses his discretionary power to see if the petition is too long or not.
4. Go to Starbucks during lunch and afternoon breaks and buy coffee for all the
judges.
5. Do NURU massage. That’s the happening thing nowadays. NURU is the most
happening thing in 2020. Trust the petitioner on this.
6. On your spare time, please do some research on what it takes to become a lawyer
- 4 years of undergraduate and 3 years of professional doctorate. And several
years of experience in the judiciary will fetch you a chance, not guaranteed mind
you, a mere chance to become a judge. First, they will make you a judge of
trial court in some "water stop" (In railroad, water stop is a place where steam
trains stop to replenish water).And then several years of navigating through the
7

system and climbing up the ladder, you become the Chief Justice. And then a
case goes through trial, appellate and comes to the court of last resort. After
much deliberation the Chief Justice writes an opinion.
7. If the clerk wants to write opinions, there are other options like blogs.

C. Appellate Versus Appeal
1. Appellate deals with traffic tickets of Volkswagen, Appeal deals with traffic
tickets of BMW.
2. Appellate, and appeal, both have "appellate" jurisdictions.
3. Both, appellate and appeal, cannot perform certain things - and this is what we
mean by their "jurisdictional" limits.
4. Supreme Court deals with two unique instances: a.) Traffic tickets of Lamborghinis and, the other, b.) questions of law. This litigation is not about the
former, but the latter (By the way, do you know what they Lamborghini owners
in San Francisco?). Both appellate and appeal courts can try and encroach upon
the Supreme Court jurisdiction to handle the former, but no matter how much
they try, they cannot encroach upon the Supreme Court jurisidction to deal with
the latter. The reason is simple. They do not have enough SCHOLARSHIP to
handle questions of law.

D.

President Trump

"The outspread wings of the cherubim were 20 cubits across: one wing 5
cubits long touching one wall of the House, and the other wing 5 cubits long
touching the wing of the other cherub- Verse Eleven, Chapter Three, II
Chronicles 3:11, Kethuvim. See Scripture, II Chronicles 3:11, Kethuvim

President Trump, the Honorable President of the United States of America, has
8

played a major role in this litigation. For one, most of the action during this litigation
happened during his first term as the president. As the petitioner typewrites on the
Eve of 2021, President Trump still stands tall as the President of the United States.
The petitioner has not been following the news since the elections in November and
really hopes he continue as the president of the United States for another term.
E.

On intent

"Behold I, Moroni, do finish the record of my father Mormon. Behold, I have but few
things to write, which things I have been commanded of my father. And now it came to
pass that after the great and tremendous battle at Camorah, behold, the Nephites
which had escaped into the country southward, were hunted by the Lamanites, until
they were all destroyed ; and my father also was killed by them ; and I, even I
remaineth alone to write the sad tale of the destruction of my people. But behold, they
are gone, and I fulfil the commandment of my father. And whether they will slay me, I
know not; therefore I will write and hide up the records in the earth : and whither I go
it mattereth not. Behold, my father hath made this record, and he hath written the
intent thereof. And behold, I would write it also, if I had room upon the plates ; but 1
have not. Friends I have none, for I am alone : my father hath been slain in battle, and
all my kinsfolks, and I have not friends nor whither to go ; and how long that the Lord
will suffer that I may live, i know not. Behold, four hundred years have passed away
since the coming of our Lord and Saviour. And behold, the Lamanites have hunted my
people, the Nephites, down from city to city, and from place to place, even until they are
no more ; and great has been their fall; yea, great and marvellous is the destruction of
my people, the Nephites. And behold, it is the hand of the Lord which hath done it. And
behold also, the Lamanites are at war one with another; and the whole face of this
land is one continual round of murder and bloodshed; and no one knoweth the end of
the war. And now behold, I say no more concerning them, for there are none, save it be
Lamanites and robbers, that do exist upon tlie face of the land; and there are none that
do know the true God, save it be the disciples of Jesus, which did tarry in the land until
the wickedness of the people were so great, that the Lord would not suffer them to
remain with the people ; and whether they be upon the face of the land, no man
9

knoweth. But behold, my father and I have seen them, and they have ministered unto
us. And whoso receiveth this record, and shall not condemn it because of the
imperfections which are in it, the same shall know ofgreater things than these. Behold,
I am Moroni; and were it possible, I would make all things known unto you. Behold, I
make an end of speaking concerning this people. I am the son of Mormon, and my
father was a descendant ofNephi; and I am the same which hideth up this record unto
the Lord; the plates thereof are of no worth, because of the commandment of the Lord.
For he truly saith, That no one shall have them to get gain; but the record thereof is of
great worth ; and whoso shall bring it to light, him will the Lord bless. For none can
have power to bring it to light, save it be given him of God : for God will that it shall be
done with an eye singled to his glory, or the welfare of the ancient and long dispersed
covenant people of the Lord. And blessed be him that shall bring this thing to light: for
it shall be brought out of darkness unto light, according to the word of God ; yea, it
shall be brought out of the earth, and it shall shine forth out of darkness, and come
unto the knowledge of the people ; and it shall be done by the power of God : and if
there be faults, they be the faults of a man. But behold, we know no fault. Nevertheless,
God knoweth all things ; therefore he that condemneth, let him be aware lest he shall
be in danger of hell fire. And he that sayeth. Shew unto me, or ye shall be smitten, let
him beware lest he commandeth that which is forbidden of the Lord. For behold, the
same that judgeth rashly, shall be judged rashly again : for according to his works
shall his wages be ; therefore, he that smiteth, shall be smitten again of the Lord.
Behold what the Scripture saith : Man shall not smite, neither shall he judge : for
judgement is mine, saith the Lord; and vengeance is mine also, and I will repay. And
he that shall breathe out wrath and strifes against the work of the Lord, and against
the covenant people of the Lord, which is the house of Israel, and shall say. We will
destroy the work of the Lord, and the Lord will not remember his covenant which he
hath nxlde unto the house of Israel, the same is in danger to be hewn down and cast
into the fire : for the eternal purposes of the Lord shall roll on, until all his promises
shall be fulfilled. Search the prophecies of Isaiah. Behold, I cannot write them. Yea,
behold I say unto you. That those saints which have gone before me, which have
possessed this land, shall cry ; yea, even from the dust will they cry unto the Lord ; and
10

as the Lord liveth, he will remember the covenant which he hath made with them. And
he knoweth their prayers, that they were in the behalf of their brethren. And he
knoweth their faith ■: for in his name could they remove mountains ; and in his name
could they cause the earth to shake ; and by the power of his word did they cause
prisons to tumble to the earth; yea, even the fiery furnace could not harm them ; neither
wild beasts, nor poisonous serpents, because of the power of his word. And behold, their
prayers were also in behalf of him that the Lord should suffer to bring these things
forth. And no one need not say, They shall not come, for they surely shall, for the Lord
hath spoken it: for out of the earth shall they come, by the hand of the Lord, and none
can stay it; and it shall come in a day when it shall be said that miracles are done
away ; and it shall come even as if one should speak from the dead. And it shall come
in a day when the blood of saints shall cry unto the Lord, because of secret
combinations and the works of darkness ; yea, it shall come in a day when the power of
God shall be denied, and churches become defiled, and shall be lifted up in the pride of
their hearts ; yea, even in a day when leaders of churches, and teachers, in the pride of
their hearts, even to the envying of them who belong to their churches ; yea, it shall
come in a day when there shall be heard of fires, and tempests, and vapors of smoke in
foreign lands; and there shall also be heard of wars, and rumors of wars, and
earthquakes in diverse places ; yea, it shall come in a day when there shall be great
pollutions upon the face of the earth : there shall be murders, and robbing, and lying,
and deceivings, and whoredoms, and all manner of abominations ; when there shall be
many which will say, Do this, or do that, and it mattereth not, for the Lord will uphold
such at the last day. But wo unto such, for they are in the gall of bitterness, and in the
bonds of iniquity. Yea, it shall come in a day when there shall be churches built up that
shall say. Come unto me, and for your money you shall be forgiven ofyour sins. O ye
wicked, and perverse, and stiffnecked people, why have ye built up churches unto
yourselves to get gain ? Why have ye transfigured the holy word of God, that ye might
bring damnation upon your souls ? Behold, look ye unto the revelations of God. For
behold, the time cometh at that day when all these things must be fulfilled. Behold, the
Lord hath shewn unto me great and marvellous things concerning that which must
shortly come at that day when these things shall come forth among you. Behold, I
11

speak unto you as ifye were present, and yet ye are not. But behold, Jesus Christ hath
shewn you unto me, and I know your doing; and I know that ye do walk in the pride of
your hearts; and there are none, save a few only, which do not lift themselves up in the
pride of their hearts, unto the wearing of very fine apparel, unto envying, and strifes,
and malice, and persecutions, and all manner of iniquities ; and your churches, yea,
even every one, have become polluted because of the pride of your hearts. For behold, ye
do love money, and your substances, and your fine apparel, and the adorning ofyour
churches, more than ye love the poor and the needy, the sick and the afflicted. O ye
pollutions, ye hypocrites, ye teachers, which sell yourselves for that which will canker,
why have ye polluted the holy church of God ? Why are ye ashamed to take upon you
the name of Christ? Why do ye not think that greater is the value of an endless
happiness, than that misery which never dies, because of the praise of the world ? Why
do ye adorn yourselves with that which hath no life, and yet suffer the hungry, and the
needy, and the naked, and the sick, and the afflicted to pass by you, and notice them not
? Yea, why do ye build up your secret abominations to get gain, and cause that widows
should mourn before the Lord, and also orphans to mourn before the Lord; and also
the blood of their fathers and their husbands to cry unto the Lord from the ground, for
vengeance upon your heads ? Behold, the sword of vengeance hangeth over you ; and
the time soon cometh that he avengeth the Mood of the saints upon you, for he will not
suffer their cries any longer. And now, I speak also concerning those who do not believe
in Christ. Behold, will ye believe in the day of your visitation, behold, when the Lord
shall come; yea, even that great day when the earth shall be rolled together as a scroll,
and the elements shall melt with fervent heat; yea, in that great day when ye shall be
brought to stand before the Lamb of God, then will ye say that there is no God ? Then
will ye longer deny the Christ, or can ye behold the Lamb of God ? Do ye suppose that
ye shall dwell with him under a consciousness ofyour guilt ? Do ye suppose that ye
could be happy to dwell with that holy Being, when your souls are racked with a
consciousness ofyour guilt that ye have ever abused his laws ? Behold I say unto you,
that ye would be more miserable to dwell with a holy and just God, under a
consciousness ofyour filthiness before him, than ye would to dwell with the damned
souls in hell ? For behold, when ye shall be brought to see your nakedness before God,
12

and also the glory of God, and the holiness of Jesus Christ, it will kindle a flame of
unquenchable fire upon you. O then ye unbelieving, turn ye unto the Lord; cry mightily
unto the Father in the name of Jesus, that perhaps ye may be found spotless, pure, fair,
and white, having been cleansed by the blood of the Lamb, at that great and last day.
And again I speak unto you, who deny the revelations of God, and say that they are
done away, that there is no revelations, nor prophecies:, nor gifts, nor healing, nor
speaking with tongues, and the interpretation of tongues. Behold I say unto you, He
that denieth these things, knoweth not the Gospel of Christ; yea, they have not read the
Scriptures ; if so, they do not understand them. For do we not read that God is the
same yesterday, to-day. and forever : and in him there is no variableness, neither
shadow of changing. And now, ifye have imagined up unto yourselves a god which
doth vary, and in him there is shadow of changing, then have ye imagined up unto
yourselves a god which is not a God of miracles. But behold, I will shew unto you a God
of miracles, even the God ofAbraham, and the God of Isaac, and the God of Jacob ; and
it is that same God which created the heavens and the earth, and all things that in
them is. Behold, he crated Adam ; and by Adam came the fall of man. And because of
the fall of man, came Jesus Christ, even the Father and the Son ; and because of Jesus
Christ, came the redemption of man. And because of the redemption of man, which
came by Jesus Christ, they are brought back into the presence of the Lord ; yea, this is
wherein all men are redeemed, because the death of Christ bringeth to pass the
resurrection, which bringeth to pass a redemption from an endless sleep, from which
sleep all men shall be awoke by the power of God, when the trump shall sound ; and
they shall come forth, both small and great, and all shall stand before his bar, being
redeemed and loosed from this eternal band of death, which death is a temporal death ;
and then cometh the judgement of the Holy One upon them : and then cometh the time
that he that is filthy, shall be filthy still; and he that is righteous, shall be righteous
still: he that is happy, shall be happy still; and he that is unhappy, shall be unhappy
still. And now, O all ye that have imagined up unto yourselves a god which can do no
miracles, I would ask of you, have all these things past, of which I have spoken ? Has
the end come yet ? Behold I say unto you. Nay ; and God has not ceased to be a God of
miracles. Behold, are not the things that God hath wrought, marvellous in our eyes ?
13

Yea, and who can comprehend the marvellous works of God ? Who shall say that it was
not a miracle, that by his word the heaven and the earth should be ; and by the power
of his word, man was created of the dust of the earth ; and by the power of his word,
hath miracles been wrought? And who shall say that Jesus Christ did not do many
mighty miracles ? And there was many mighty miracles wrought by the hands of the
apostles. And if there was miracles wrought, then why has God ceased to be a God of
miracles, and jet be an unchangeable being. And behold I say unto you, He changeth
not: if so, he would cease to be God; and he ceaseth not to be God, and is a God of
miracles. And the reason why he ceaseth to do miracles among the children of men, is
because that they dwindle in unbelief, and depart from the right way, and know not the
God in whom they should trust. Behold I say unto you, That whoso believeth in Christ,
doubting nothing, whatsoever he shall ask the Father in the name of Christ, it shall be
granted them : and this promise is unto all, even unto the ends of the earth. For behold,
thus saith Jesus Christ, the Son of God, unto his disciples which should tarry ; yea,
and also to all his disciples, in the hearing of the multitude. Go ye into all the world,
and preach the Gospel to every creature ; and he that believeth and is baptized, shall be
saved, but he that believeth not, shall be damned. And these signs shall follow them
that believe : In my name shall they cast out Devils ; they shall speak with new tongues
; they shall take up serpents ; and if they drink any deadly thing, it shall not hurt them
; they shall lay hands on the sick, and they shall recover; and whosoever shall believe in
my name, doubting nothing, unto him will I confirm all my words, even unto the ends
of the earth. And now behold, who can stand against the works of the Lord ? Who can
deny his sayings? Who will rise up against the almighty power of the Lord ? Who will
despise the works of the Lord ? Who will despise the children of Christ ? Behold, all ye
that are despisers of the works of the Lord, for ye shall wonder and perish, O then
despise not, and wonder not, but hearken unto the words of the Lord, and ask the
Father in the name of Jesus for what things soever ye shall stand in need. Doubt not,
but be believing, and begin as in times of old, and come unto the Lord with all your
heart, and work out your own salvation with fear and trembling before him. Be wise in
the days ofyour probation ; strip yourselves of all uncleanness ; ask not, that ye may
consume it on your lusts, but ask with a firmness unshaken, that ye will yield to no
14

temptation, but that ye will serve the true and living God. See that ye are not baptized
unworthily ; see that ye partake not of the sacrament of Christ unworthily; but see that
ye do all things in worthiness, and do it in the name of Jesus Christ, the son of the
living God ; and if ye do this, and endure to the end, ye will in no wise be cast out.—
Behold, I speak unto you as though I spake from the dead : for I know that ye shall
hear my words. Condemn me not because of mine imperfection ; neither my father,
because of his imperfection ; neither them which have written before him, but rather
give thanks unto God that he hath made manifest unto you our imperfections, that ye
may learn to be more wise than that which we have been." - First Paragraph, Chapter
Four, The Book of Mormon. See The Book of Mormon, Chapter IV1830 (1830)

The Book of Mormon is as such very powerful. The Book of Mormon, the booklet
inside The Book of Mormon, is even more powerful, and chapter IV is probably the
most powerful.
Oh, we were talking the intent. As is obvious, for a litigation to come all the way to
the United States Supreme Court, you can imagine what the plaintiff/petitioner must
have gone through in staying solid with questions of intent. To those who question the
petitioner’s intent, the petitioner asks them: "Every time you fuck your wife, who
do you think of while fucking? Be honest and tell other. Do you think of
your wife, or the other woman who you fucked days before? Be clean with
your intent first before questioning others." Hence, kindly shut the fuck up and
read the scriptures and live the gospel and be good citizens. And these fags do not
question the petitioner directly about the intent. They do what fags do - talk in the
back and spread rumors.

Conclusion
"They shall not marry widows or divorced women; they may marry only
virgins of the stock of the House of Israel, or widows who are widows of
15

priests- Verse Twenty-Two, Chapter Forty-four, Yechezkel, Nevi’im. See Scripture,
44:22, Yechezkel
Hermeneutics: By the term widows, they mean widows of laymen. Rashi says: but...
virgins: may the High Priests take. But there are some priests who may take a widow,
namely, the ordinary ones, and this is the meaning of “some of the priests may marry”
; there are some priests who are permitted to marry a widow, who is only a widow: A
real [widow], excluding a divorcee and a woman upon whom the rite of chalitzah was
performed; although she is unmarried, she is forbidden even for an ordinary [priest].

Dear Honorable Chief Justice,
All other things can wait. Whatever you are doing now, please put them in the
back-burner for a little while, and as they simmer, kindly attend to this petition ASAP.
This is THE defining litigation in the history of the United States of America. When it
comes to matters of the church, how we majorly differ from England is that we are
disestablished. But, at the same time, church seems to have a powerful voice over
the state. This extraordinary writ addresses that issue, and asking the court to
"formalize the disestablishment". The supreme court of California, while the
highest state court, is still inferior to the Supreme Court of the United States. This
writ, while being traditional, is very powerful. This will be in aid to the Supreme
Court of California, asking them to do their job that they are supposed to do, which in
this case, is to settle an important question of law.
You know, the hireling to the Clerk (not even the chief clerk, let me repeat, the
hireling to the clerk),she is telling the petitioner, Ravi S. Vaidyanathan, that the
Supreme Court of California will accept questions of law only from the United States
Court of Appeals for the Ninth Circuit.
Thats only a sample. Hence, please, please, please, attend to this as soon as possible.
Otherwise, things are pretty cool in San Francisco. Jen, the petitioner’s girlfriend,
told him that not many people from the east coast have taken the cable car in San
16

Francisco. Don’t worry. If you visit San Franciso, we can take the Cable Car
together. Its all the petitioner’s homies here. Just mention the petitioner’s name, they
will give you a free pass.

Respectfully Submitted,

Ravi S. Vaidyanathan
Pro Se
December 31, 2020

17

